@OCKLE

; E-Mail Address:
Legal Briefs contacr@eockiclgatbrieB.com

1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

www.cocklelegalbriefs.com

No. 19-574

SHEILA J. POOLE, Commissioner of the New York
State Office of Children & Family Services,
Petitioner,

Vv.

NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICI CURIAE
STATES OF CONNECTICUT, ALASKA, ARIZONA, COLORADO, DELAWARE, DISTRICT
OF COLUMBIA, HAWAI‘I, IDAHO, ILLINOIS, INDIANA, MAINE, MICHIGAN,
MISSISSIPPI, NEVADA, OHIO, OKLAHOMA, OREGON, SOUTH CAROLINA, TENNESSEE,
TEXAS, UTAH, AND VIRGINIA IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
3837 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of December, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notat 7
State of Nebraska bes CG Lalit Qudraw- kh. Chk
My Commission Expires Nov 24, 2020 ’

Notary Public Affiant

 

 

39070
